         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over the Use
of Service Contracts at the Office of
River Protection




OAS-M-09-02                            April 2009
                              Department of Energy
                                Washington, DC 20585

                                      April 29, 2009



MEMORANDUM FOR THE MANAGER, OFFICE OF RIVER PROTECTION


FROM:                    George W. Collard
                         Assistant Inspector General
                            for Performance Audits
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Management Controls over
                         the Use of Service Contracts at the Office of River Protection"

BACKGROUND

The Department of Energy's (Department) Office of River Protection (ORP) is
responsible for the storage, treatment, and disposal of over 53 million gallons of highly
radioactive waste from over 40 years of plutonium production at the Hanford Site.
Because of the diversity, complexity, and large scope of its mission, coupled with its
small staff, ORP told us that it has found it necessary to engage in service contracts to
obtain consulting services, technical expertise, and support staff.

Federal policy generally permits contractors to perform a wide range of support
service activities, including, in most situations, the drafting of Government
documents subject to the review and approval of Federal employees. Federal policy
issued by the Office of Management and Budget, however, prohibits contractors from
drafting agency responses to Congressional inquiries and reports issued by the Office
of Inspector General and Government Accountability Office (GAO) because they are
so closely related to the public interest and provide the appearance of private
influence.

To provide a majority of its needed services, ORP issued a Blanket Purchase Agreement
to Project Assistance Corporation (PAC) in 2003. Through the Blanket Purchase
Agreement, ORP acquired services in the areas of project management, risk assessment,
program assessment, quality assurance, safety, cost and schedule estimating, budgeting
and finance, and engineering. PAC has, in turn, subcontracted with various other firms to
obtain some of the services needed by ORP. From 2005 to 2008, the total annual cost for
the contract with PAC had grown from $4.7 million to $9.2 million. Because of the
extent of the services provided and growing costs of the contract, we conducted this
review to determine whether ORP appropriately administered its contract with the Project
Assistance Corporation.
                                            2

RESULTS OF AUDIT

Our review disclosed that, in some instances, ORP had not appropriately administered
all work performed under the PAC contract. Specifically, ORP allowed PAC
employees to perform work that was inherently governmental and created situations
where a potential conflict of interest occurred. Specifically:

   •   ORP assigned PAC employees responsibility for providing information and
       responses to Congressional inquiries and reports issued by the GAO and the
       Department of Energy's Office of Inspector General (OIG);

   •   PAC employees were also allowed to perform functions that created potential
       conflicts of interest. ORP permitted PAC employees, for example, to develop
       statements of work and approve funding of work to be performed under
       PAC’s own contract.

We concluded that these problems occurred, at least in part, because ORP had not
established controls necessary to effectively administer the PAC contract. Federal
procurement regulations recommended that agencies provide additional management
controls over contractors whose work has the potential to influence the action of
government officials. ORP, however, had not implemented the controls specifically
recommended in Federal policy guidance for administering contracts, including:

   •   Performing conflict of interest reviews; and,

   •   Separating contractor and Department employees either physically or
       organizationally.

By not effectively administering its contract with PAC, ORP increased the risk that
decisions based on work performed by the contractor may not have been made in the best
interests of the Department. For example, ORP increased the risk that approved work
would be unnecessary or too costly.

As we also recently noted in our report on Management Challenges at the Department of
Energy (DOE/IG-0808, December 2008), contract administration issues such as those
discussed in this report remain a significant vulnerability. Continued efforts to improve
this area are vitally important since the risk that contractors receive payments for
unallowable costs could also increase as the Department expands its contracting activities
under the American Recovery and Reinvestment Act.

To its credit, however, ORP has recognized that there are weaknesses in its oversight of
the PAC contract and is in the process of taking certain corrective actions. ORP indicated
that it had reassigned responsibility to a Federal employee for responding to
Congressional requests, GAO reviews, and OIG reports, and, planned to physically
separate PAC employees from their government counterparts. While positive, those
actions do not sufficiently address the issues identified in our report. Accordingly, we
have made several recommendations designed to strengthen internal controls over this
area.
                                            3

MANAGEMENT REACTION

Management generally concurred with our recommendations. Management stated that
services provided by PAC employees had not impacted federal oversight of the
Department’s decision-making process in responding to Congressional inquiries and
reports issued by the GAO and the OIG. Management also stated that PAC employees
provided only administrative support in the development of procurement requests that did
not involve inherent government functions.

Although it did not fully agree that PAC employees performed functions not
appropriately assigned to contractors, management recognized the need to improve
controls over the contractor. Specifically, management stated that as a result of its own
internal assessment and discussions with the OIG, it was in the process of identifying
internal control weaknesses and has begun taking actions to correct them. Management
concurred with our recommendations and planned to take corrective actions to address
them. Management's comments and our responses are summarized in the body of the
report and are attached as Appendix 3.

Attachment

cc:   Office of the Deputy Secretary
      Office of the Under Secretary of Energy
      Chief of Staff
      Acting Assistant Secretary for Environmental Management
REPORT ON MANAGEMENT CONTROLS OVER THE USE OF SERVICE
CONTRACTS AT THE OFFICE OF RIVER PROTECTION


TABLE OF CONTENTS


Service Contract Administration

Details of Finding ......................................................................................................................1

Recommendations......................................................................................................................3

Management and Auditor Comments ........................................................................................3


Appendices

1. Objective, Scope, and Methodology....................................................................................5

2. Related Audit Reports..........................................................................................................7

3. Management Comments ......................................................................................................8
SERVICE CONTRACT ADMINISTRATION

Contract              The Department of Energy's (Department) Office of River
Administration        (ORP) had not always appropriately administered its
Issues                contract with the Project Assistance Corporation (PAC).
                      Specifically, we found one instance in which ORP allowed
                      PAC to perform a specific, inherently governmental
                      function. Further, we identified situations in which
                      potential conflicts of interest existed for activities
                      performed by PAC employees.

                        Performance of Inherently Governmental Functions

                      Office of Management and Budget Policy (OMB)
                      Letter 92-1 defines functions that are inherently
                      governmental as those that are so intimately related to
                      the public interest as to mandate performance by a
                      government employee. We identified one instance in
                      which ORP directed PAC employees or its
                      subcontractors to perform work that is expressly stated
                      as being inherently governmental in nature. OMB
                      Policy Letter 92-1, states that contractors are not to be
                      used for drafting agency responses to Congressional
                      inquiries and reports issued by the Office of Inspector
                      General (OIG) and Government Accountability Office
                      (GAO). However, we found that PAC's statement of
                      work assigned responsibility to the contractor for
                      providing information and responses to Congressional
                      inquiries and reports issued by the OIG and the GAO.

                                         Conflicts of Interest

                      In addition, ORP allowed PAC to perform functions
                      that resulted in potential conflict of interest situations.
                      Specifically, PAC employees developed their own
                      scope of work for services to be provided to ORP and
                      approved funding authorizations for procurement
                      requests related to PAC’s own contract. Specifically,
                      ORP allowed PAC employees to:

                          •   Prepare statements of work for 16 of the 27
                              baseline change requests to its contract.
                              Accordingly, PAC employees were allowed to
                              establish the Federal requirements for work to
                              be performed under the contract.

                          •   Approve funding authorizations as the Program
                              Budget Official and/or Certifying Official for 29
                              of the 80 Procurement Request/Authorizations
________________________________________________________________
Page 1                                            Details of Finding
                             issued on the PAC contract between February
                             2006 and February 2008. In signing as the
                             Program Budget Official, the PAC employee
                             certified "that funds cited are proper for this
                             procurement and in compliance with applicable
                             appropriation acts and fiscal law." As
                             Certifying Official, the PAC employee was
                             certifying that the funds were available.
Internal Controls     The Office of Management and Budget (OMB) policy
                      and Federal Acquisition Regulations specify that
                      Federal agencies should provide additional
                      management controls for the oversight and
                      administration of contracts that have the potential for
                      influencing the actions of government officials. OMB
                      Policy Letter 92-1 identifies conflict of interest reviews
                      and physical separation of contractor employees from
                      government personnel, for example, as controls needed
                      over contractors’ work. In spite of this specific
                      requirement, we noted that ORP had not completed the
                      required conflict of interest reviews of the PAC
                      contract. Specifically, ORP had not reviewed the PAC
                      contract to identify areas where PAC employees would
                      be performing tasks directly affecting their own
                      contract such as preparing their own statements of work
                      and approving funds for the work.
                      Also, ORP had not physically separated PAC
                      employees from government personnel. In fact, ORP
                      integrated PAC employees into various administrative
                      functions and co-located them with their government
                      employee counterparts. Although there was evidence
                      of government employees’ review of PAC employees’
                      work products, the integration of contractor employees
                      with ORP employees blurred the lines of responsibility.
                      For example, there was no indication that employees
                      who certified that funding was available and in
                      compliance with applicable laws for PAC work
                      authorizations were PAC employees and not
                      government employees.
                      The Manager of the ORP told us that as a result of our
                      audit and ORP's internal review, she had (1) reassigned
                      responsibility for responding to Congressional requests,
                      GAO reviews, and OIG reports to a Federal employee;
                      and (2) planned to physically separate PAC employees
                      from their government counterparts.

________________________________________________________________
Page 2                                            Details of Finding
Impact on              ORP increased the risk that decisions based on work
Government Decisions   performed by the contractor may not be in the best
                       interests of the Department. For example, ORP
                       increased the risk that approved work under the contract
                       would be unnecessary or too costly.

RECOMMENDATIONS        ORP has recognized that there are weaknesses in its
                       administration of the PAC contract and is in the process
                       of taking certain corrective actions. To help ensure that
                       these actions are effective, we recommend that the
                       Manager of the Office of River Protection:

                          1. Conduct a conflict of interest review of PAC-
                             performed functions to ensure that they don't
                             directly affect the PAC contract; and,

                          2. Complete the planned separation of PAC
                             employees from their government employee
                             counterparts.

MANAGEMENT             Management generally concurred with our report and
REACTION               recommendations. Management asserted that as a result
                       of its assessment and discussion with the OIG, it has
                       identified a number of internal control weaknesses with its
                       administration of the PAC contract and is in the process of
                       taking corrective actions to address those weaknesses.
                       Regarding PAC employees being tasked to provide
                       responses to Congressional inquiries, OIG, and GAO audit
                       reports, management stated that contractor employees
                       assisted in data collection and consolidation but that federal
                       staff reviewed, edited, and finalized all agency responses.
                       Management’s position was that such administrative
                       functions did not influence Department decision-making.
                       Management also stated that it has taken action to revise
                       the contract workscope for this activity and has placed the
                       responsibility for responding to Congress, the OIG, and
                       GAO under the purview of a single federal employee.

                       With regard to the issues of conflict of interest, ORP
                       officials asserted that they revised the process for
                       developing Statements of Work (SOWs) and that PAC
                       employees’ signatures on Procurement
                       Request/Authorization forms were only to verify that data
                       had been input into the Budget Execution and Report
                       System. ORP officials also asserted that the Procurement
                       Request/Authorization forms were reviewed and approved
                       by multiple federal officials prior to submission to the
                       contracting officer for contract modification. Accordingly,
________________________________________________________________
Page 3                              Recommendations and Comments
                     management concluded that the administrative services did
                     not constitute an inherent government function. Further,
                     management stated that PAC officials no longer sign these
                     forms.

                     Management concurred with the recommendation to
                     perform a conflict of interest review and plans for the
                     Contracting Officer for the PAC contract to conduct such a
                     review. ORP also concurred with our recommendation to
                     separate PAC employees from their federal counterparts.
                     ORP plans to have PAC employees physically separated by
                     September 30, 2009.

AUDITOR              Management's completed and planned actions are responsive
RESPONSE             to our recommendations and should, if effectively implemented,
                     improve administration of the PAC service contract. We
                     recognize that ORP has taken action to identify and address
                     issues with the contract. Regarding management’s
                     assertion that contractor employees performed only
                     administrative functions, we observed during the course of
                     our audit that PAC employees represented management at
                     meetings with the OIG and responded to OIG inquiries
                     without disclosing they were not federal employees.
                     Further, regarding the approval of Procurement
                     Request/Authorization forms, we concluded that the close
                     proximity of contractor and federal employees increased
                     the risk that the federal managers over-relied on contractors
                     to define work to be performed and approve funding for
                     such work.




________________________________________________________________
Page 4                                                 Comments
Appendix 1

OBJECTIVE             The objective of this audit was to determine whether the
                      Office of River Protection (ORP) appropriately administered
                      its contract with the Project Assistance Corporation (PAC).

SCOPE                 We conducted the audit from June 10, 2008 to April 22, 2009,
                      at ORP in Richland, Washington. The scope of the audit
                      covered contract administration activities by ORP in relation to
                      its contract with PAC.

METHODOLOGY           To accomplish the audit objective, we:

                         •   Reviewed applicable laws and regulations pertaining to
                             the administration of service contracts;

                         •   Reviewed prior reports issued by the Office of
                             Inspector General, the Government Accountability
                             Office, and ORP;

                         •   Interviewed ORP Acquisition Management Division
                             officials to identify policies, procedures, and practices
                             used to administer the contract with PAC;

                         •   Reviewed ORP's contract file for the PAC contract to
                             identify tasks assigned to PAC to perform;

                         •   Interviewed ORP officials and PAC employees to
                             determine what tasks PAC employees performed and
                             the manner in which they performed them;

                         •   Reviewed PAC invoices submitted to ORP; and,

                         •   Identified PAC employees who had worked for other
                             ORP prime contractors.

                      We conducted this performance audit in accordance with
                      generally accepted government auditing standards. Those
                      standards require that we plan and perform the audit to obtain
                      sufficient, appropriate evidence to provide a reasonable basis
                      for our findings and conclusions based on our audit objectives.
                      We believe that the evidence obtained provides a reasonable
                      basis for our findings and conclusions based on our audit
                      objectives. Because our review was limited, it would not
                      necessarily have disclosed all internal deficiencies that may
                      have existed at the time of our audit. We also assessed
                      performance measures in accordance with the Government
                      Performance and Results Act of 1993 and determined that

________________________________________________________________
Page 5                             Objective, Scope, and Methodology
Appendix 1 (continue)

                      performance measures had not been established for the
                      administration of service contracts by ORP. We did not rely on
                      computer processed data to satisfy our audit objectives. ORP
                      management waived an exit conference.




________________________________________________________________
Page 6                             Objective, Scope, and Methodology
Appendix 2

                                    PRIOR REPORTS

                              RELATED AUDIT REPORTS


Office of Inspector General Reports

    •   Audit of the Department of Energy Program Offices' Use of Management and
        Operating Contractor Employees (DOE/IG-0392, July 1996). The audit found that the
        use of contract employees for service support functions at the Department of Energy
        (Department) Headquarters resulted in situations where conflicts of interest and
        contractor performance of inherently governmental functions could have been
        occurring. The primary cause was that the Department had not established guidance for
        using these type of contractor employees and that the Department was not monitoring
        their use.

Government Accountability Office Reports

    •   Defense Contracting: Army Case Study Delineates Concerns with Use of Contractors
        as Contract Specialists (GAO-08-360, March 2008). The audit found that contractor
        personnel were not always clearly identifying themselves as non-government
        employees and that there was a high potential for personal services issues. Personal
        and organization conflicts of interest were being mitigated but notification of the
        potential was reliant upon the contractor employees. The Government Accountability
        Office (GAO) also found that the government was paying more for contract employees
        then for similarly graded government employees. Finally, GAO also found that the
        Contracting Center of Excellence was inappropriately ordering contract specialists
        under a General Services Administration contract. This was inappropriate because the
        services were out of the scope of those contracts.

.




___________________________________________________________________
Page 7                                                  Prior Report
Appendix 3


                                           Department of Energy
                                               Washington, DC 20585

                                                 APR .. 3 2009

             MEMORANDUM FOR GEORGE W. COLLARD

                            ASSISTANT INSPECTOR GENERAL FOR
                             PERFORMANCE AUDITS
                            OFFICE OF INSPECTOR GENERAL

             FROM:                    J. E. SURASH         ~-f),AI1
                                                            J11/\
                                      DEPUTY ASSIS               ~I~%{~Jy
                                                                  FOR
                                         ACQUISITION ND PROJECT MANAGEMENT

             SUBJECT:                 Draft Report on "Management Controls Over the Use of
                                      Service Contracts at the Office of River Protection"
                                      (Case File No. A08RL057)

             This is in response to your memorandum dated February 6, 2009, concerning the subject
             report. To address this request for comment, the Office of River Protection's Acquisition
             Management Division has reviewed the Office of Inspector General's draft report and
             provided the following responses regarding the facts presented and feasibility of the
             recommendations made.

             The OIG's recognition of the actions underway at the Office of River Protection (ORP) to
             further strengthen the administration of the contract with Project Assistance Corporation
             (PAC) is noted and appreciated.

             ORP began a self-assessment of its contract oversight in November 2007, made
             observations, and identified recommended actions for strengthening internal controls.
             The report, titled Assessment ofProject Management and Subcontract Management
             Services Provided Under GSA Task Order/Blanket Purchase Aweement No. DE-AB27­
             03RV14546, summarized those findings and was finalized on March 25, 2008.
             Subsequently, ORP executed additional controls prior to the initiation of the OIG's audit
             in June 2008.

             We believe that actions currently underway as a result of ORP' s self assessment, as well
             as discussions with OIG staff during the course of this audit, will fully address the
             concerns regarding administration of the PAC contract.

             In response to the facts presented in the IG draft report, EM offers the following
             information.

                                Performance of Inherently Governmental Functions

             Office of Management and Budget (OMB) Policy Letter 92-1 defines functions that are
             inherently governmental as those that are so intimately related to the public interest as to


                                           e     Printed with soy ink on recycled paper


Page 8                                                                                     Management Comments
Appendix 3 (continued)

                                                                                                        2



            mandate performance by a government employee. The IG identified one instance in
            which ORP directed PAC employees or its subcontractors to perform work that is
            expressly stated as being inherently governmental in nature. OMB Policy Letter 92-1,
            states that contractors are not to be used for drafting agency responses to Congressional
            inquiries and reports issued by the Office of Inspector General and the Government
            Accountability Office (GAO). However, the IG found that PAC employees had been
            assigned the responsibility for providing information and responses to Congressional
            inquiries and reports issued by the OIG and GAO as called for in the contractor's work
            scope description.

            Response:	     The ORP responses to Congress and reports issued by the OIG and GAO
                           represent the positions, policy, and viewpoints of federal managers at
                           ORP. Support from PAC employees was used to coordinate this effort;
                           collecting and consolidating technically-complex and/or administrative
                           information for federal staff. However, ORP management and its
                           technical staff reviewed, edited, and finalized all agency responses to
                           Congressional, OIG, and GAO reports. It is our position that the services
                           provided did not impact federal oversight or the Department's decision­
                           making process. ORP has taken action to redefine this task in the
                           contractor's work scope by issuing a revised Statement of Work for this
                           activity on January 14,2009. At the same time, all congressional inquiries
                           and reports to the OIG and GAO were placed under the purview of a
                           single federal employee in late January 2009.

                                                Conflicts of Interest

            The IG reported that ORP allowed PAC to perform functions that resulted in potential
            conflict of interest situations. Specifically, PAC employees developed their own scope of
            work for services to be provided to ORP and approved funding authorizations for
            procurement requests related to PAC's own contract. Specifically, ORP allowed PAC
            employees to prepare statements of work for sixteen of the twenty-seven baseline change
            requests to its contract. Accordingly, PAC employees were allowed to establish the
            Federal requirements for work to be performed under the contract.

            In addition, the IG reported that ORP allowed PAC employees to approve funding

            authorizations as the Program Budget Official and/or Certifying Official for twenty-nine

            of the eighty Procurement Request!Authorizations issued on the PAC contract between

            February 2006 and February 2008. In signing as the Program Budget Official, the PAC

            employee certified "that funds cited are proper for this procurement and in compliance

            with applicable appropriation acts and fiscal law." As Certifying Official, the PAC

            employee was certifying that the funds were available.


            Response:	      This issue was identified by ORP in its self-assessment. To address this,
                            ORP issued a new procedure in August, 2008 to strengthen work scope
                            development and approval and the Baseline Change Request (BCR)
                            process. In accordance with this procedure, ORP only allows Federal staff



Page 9                                                                                  Management Comments
Appendix 3 (continued)

                                                                                                      3


                           to develop Statements of Work (SOW) and submit the BCRs to the
                           Contracting Officer (CO) as part of the technical requirements package.
                           The CO approves all SOWs and BCRs prior to authorizing the contractor
                           to perform specific tasks.

                           Due to the limited federal staff at ORP, PAC staff had provided
                           administrative support in entering data into the Budget Execution and
                           Reporting System. Support staff had also signed the Procurement Request
                           (PR) forms that verified data entry. It was the position of ORP that this
                           administrative support was not inherently governmental. Additionally, the
                           PR form was approved by multiple federal staff prior to submission to the
                           CO for contract modification.

                           Since ORP's self assessment and this audit, additional Federal support
                           staffhave been hired; a new invoice review procedure, titled Review of
                           Technical/Project Management Support Service Contractor Invoices, was
                           developed and approved on November 24,2008. Internal training for staff
                           was initiated on January 21,2009, and completed on February 16,2009.
                           Refresher training will be provided as needed.

                           Contractor staff no longer work on the development of SOWs or sign the
                           PR forms. A new ORP procedure titled Post-Award Labor Classification
                           Review/Approval Process for Support Services Contractor Resources was
                           approved August 13,2008. This procedure specifies that federal staff are
                           responsible for drafting SOWs. Also, ORP will develop a contract
                           management plan (CMP) for the follow-on support services contract. The
                           CMP will provide detailed roles, responsibilities, and plans for mitigating
                           conflicts of interest. ORP will provide contract management training to all
                           Federal staff by October 2009.

             With regard to the recommendations in the draft report, EM offers the following
             responses.

             1)	    Conduct a conflict of interest review of the PAC-performed functions to ensure
                    that they don't directly affect the PAC contract.

             Response:	    In addition to the self-identified and self-initiated actions already in
                           progress, EM agrees with this recommendation. The Contracting Officer
                           cognizant for the PAC service contract at ORP will conduct an in-depth
                           review of all current support service SOWs to ensure no conflicts exist.
                           As discussed earlier in this response, ORP procedures now require that
                           SOWs will be developed by Federal staff.

             2)	    Complete the planned separation of PAC employees from their government
                    employee counterparts.




Page 10                                                                                 Management Comments
Appendix 3 (continued)

                                                                                                       4



            Response:	    EM agrees with this recommendation and ORP will strive to physically
                          separate all non-administrative federal and contractor staff by September
                          30, 2009. Where co-location of non-administrative staff is deemed
                          necessary for efficient performance of functions, appropriate signage will
                          be used to clearly identify support service personnel.

            Thank you for the opportunity to review the draft of your report and provide responses.

            Should you require additional information, please contact me, at (202) 586-3867.

            cc:    J. Owendoff, EM-3
                   M. Connolly, EM-52
                   S. Olinger, ORP
                   J. Poniatowski, ORP




Page 11                                                                                  Management Comments
                                                             IG Report No. OAS-M-09-02

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations



If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
